HHS/OIG-Audit--"Review of Maximizing Drug Discounts Under the Missouri Ryan White Program, (A-07-97-00926)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Maximizing Drug Discounts Under the Missouri Ryan White Program,"
(A-07-97-00926)
May 9, 1997
Complete Text of Report is available in PDF format
(33 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report addressed the adequacy of procedures used by Missouri
for effectively maximizing available discount drug pricing programs. We compared
drug prices obtained from the Department of Health under the Ryan White Care
Act, Title II (Title II) and the AIDS Drug Assistance Program Programs (ADAP)
with drug prices obtained from the Department of Social Services under the Medicaid
program. The review covered drugs totaling $270,335 paid during the period April
1, 1996 through December 31, 1996. Generally, we found that drug prices under
Title II and ADAP were comparable to drug prices under Medicaid. No formal recommendations
were made at this time, however, because the programs are expanding, we believe
the State should continue to monitor drug prices to minimize future drug costs.